          Statement of Gregory H. Friedman

                  Inspector General

              U.S. Department of Energy



                      Before the

Subcommittee on Regulatory Affairs, Stimulus Oversight,
             and Government Spending

   Committee on Oversight and Government Reform

            U.S. House of Representatives




                                      FOR RELEASE ON DELIVERY
                                                      10:00 AM
                                                November 2, 2011
Mr. Chairman and Members of the Subcommittee:



I appreciate the opportunity to testify today at your request on the work of the Office of Inspector

General (OIG) concerning the Department of Energy's (Department) implementation of the

American Recovery and Reinvestment Act of 2009 (Recovery Act). The intent of the Recovery

Act was to quickly stimulate the economy and create jobs while fostering an unprecedented level

of accountability and transparency.



The Department received $35.2 billion in Recovery Act funding for various initiatives. At this

funding level, the Department received significantly more funds than its Fiscal Year (FY) 2011

annual budget of about $27 billion. Some existing Department programs received dramatic

increases in funding. For example, the Weatherization Program received $5 billion in Recovery

Act funding, more than a 10-fold increase from its FY 2009 budget of $450 million. In addition,

Recovery Act funds were used to create essentially new Departmental efforts, such as the Energy

Efficiency and Conservation Block Grant Program, which received $3.2 billion in funding.



Recovery Act funds also allowed the Department to drastically expand its Loan Guarantee

Program for certain renewable energy systems, electric power transmission systems and biofuels

projects that would commence construction no later than September 30, 2011. With this

expanded authority, the Department estimated that it could guarantee up to $71 billion in loans.

Additionally, the Recovery Act provided the Bonneville Power Administration and the Western

Area Power Administration over $3 billion each in authority to borrow funds from the U.S.

Department of the Treasury to modernize and build transmission infrastructure.



                                                 1
Office of Inspector General Oversight

Given the unprecedented level of funding and required transparency and oversight, the OIG

launched efforts to assist the Department with its Recovery Act implementation. Since the

passage of the Recovery Act, the OIG has:

   •   Issued 68 audit, inspection, and investigative reports covering all major program

       activities; attached to this testimony is a complete listing of the OIG's Recovery Act

       reports;

   •   Initiated over 100 Recovery Act-related criminal investigations; and,

   •   Conducted nearly 300 fraud awareness briefings for over 15,700 Federal, contractor,

       state, and other officials.



Overall Observations

Based on our body of work, we found that the effort by the Department to use Recovery Act

funds to stimulate the economy was more challenging than many had originally envisioned. The

concept of "shovel ready" projects became a Recovery Act symbol of expeditiously stimulating

the economy and creating jobs. In reality, few actual “shovel ready” projects existed. The

Department programs which benefitted from the huge influx of Recovery Act funds, as it turned

out, required extensive advance planning, organizational enhancements, and additional staffing

and training. We found this to be true at the Federal, state, and local levels. As a result, despite

a major effort in a high pressure environment, the Department struggled to obligate and expend

Recovery Act funds on a timely basis. As noted, the expeditious creation of jobs was a prime

goal of the program. The delay in expenditures was not helpful in this regard.




                                                  2
Our reviews have identified a fairly consistent pattern of delays in the pace at which Recovery

Act funds had been spent by grant and other financial assistance recipients. While the

Department has made significant progress since passage of the Recovery Act, a number of

challenges still exist. To place this in context, according to the Department's own records, as of

October 22, 2011, about 45 percent of its Recovery Act funds had not been spent, largely by

recipients such as state and local governments. This is detailed by major program area in the

following chart:



                                 Recovery Act Funding ($ million)
   Program Office                                  Authorized         DOE             Spent
                                                                     Obligated
   Energy Efficiency and Renewable Energy                 $16,666      $16,655           $9,855
   Environmental Management                                 5,989         5,988           5,378
   Electricity Delivery and Energy Reliability              4,488         4,488           1,914
   Fossil Energy                                            3,379         3,379             384
   Loan Guarantee Programs                                  2,470         1,918             396
   Science                                                  1,669         1,669           1,185
   Advanced Research Projects Agency–Energy                   387           386             173
   Departmental Administration                                144           112              83
   Western Area Power Administration                           10             9               7
   Energy Information Administration                            8             8               8
   Total                                                  $35,210      $34,612          $19,383


Illustrative of this situation, our most recent work noted that:

   •   In the Energy Efficiency and Conservation Block Grant Program, $879 million, or nearly

       a third of the formula grant funds, had not been obligated by recipients as of March 31,

       2011.

   •   One state had only spent 30 percent of its State Energy Program funds two years after

       they had become available. We found that this was due to the time needed to comply

       with regulatory requirements of the National Environmental Policy Act, the Davis-Bacon



                                                  3
       Act and the National Historic Preservation Act-issues that affected other jurisdictions as

       well.



The Department has enjoyed a number of successes, particularly in the use of Recovery Act

funds in its environmental management and science projects. Yet, our reviews identified issues

that impacted performance and affected the Department's ability to meet its Recovery Act goals.

For example, our most recent work identified that:

   •   Weatherization work was often of poor quality. In a recent audit performed at the state

       level, 9 of the 17 weatherized homes we visited failed inspections because of substandard

       workmanship;

   •   Other program management issues adversely affected weatherization work. For example,

       one subrecipient gave preferential treatment to its employees and their relatives for

       weatherization services over other applicants, thus disadvantaging eligible elderly and

       handicapped residents;

   •   The Loan Guarantee Program had not properly documented and as such could not always

       readily demonstrate how it resolved or mitigated relevant risks prior to granting loan

       guarantees; and,

   •   One of the Department's environmental management sites, relying on Recovery Act

       funding, adopted an approach to radioactive waste processing that could have cost about

       $25 million more than necessary.




                                                4
Recovery Act Investigations

The Office of Inspector General initiated over 100 investigations associated with the Recovery

Act. These involve various schemes, including the submission of false information, claims for

unallowable or unauthorized expenses, and other improper uses of Recovery Act funds.



To date, our Recovery Act-related investigations have resulted in over $2.3 million in monetary

recoveries as well as five criminal prosecutions. This includes a series of cases involving

fictitious claims for travel per diem resulting in the recovery of $1 million alone in Recovery Act

funds.



Recovery Act Implementation and Performance Observations

Even under ideal circumstances, the Recovery Act established challenging goals for the

Department. We noted during our work that there was what we considered to be an intense

effort to implement and execute the various aspects of the Department's Recovery Act

responsibilities. These efforts notwithstanding, we had a number of overarching observations

about the Department's implementation of the Recovery Act. These observations include:

   1. The pressure of achieving expeditious program implementation and execution (and doing

         so with great emphasis on transparency and accountability) placed an enormous strain on

         the Department's personnel and infrastructure.

   2. The challenges associated with the Department's program implementation and execution

         efforts were complicated by the nature of the bureaucracy in which it operates,

         specifically the diverse, complex, and often asymmetrical set of stakeholders which play

         an integral role in this process. This includes literally thousands of state and local



                                                   5
       jurisdictions, community action organizations in every state and territory, universities and

       colleges, contractors, and other private sector entities.

   3. The concept of "shovel ready" projects was not realized, nor, as we now have confirmed,

       was it a realistic expectation.

   4. The Federal, state and local government infrastructures were, simply put, overwhelmed.

       In several states, the very personnel who were charged with implementing the Recovery

       Act's provisions had been furloughed due to economic situations. Ironically, this delayed

       timely allocation and expenditures of funds intended to boost the U.S. economy and

       create jobs.

   5. The pace of actual expenditures was significantly slowed because of the time needed to

       understand and address specific requirements of the Recovery Act.

   6. Recipients expressed their concern with what they described as overly complex and

       burdensome reporting requirements.



In summary, a combination of massive funding, high expectations and inadequate infrastructure

resulted, at times, in less than optimal performance.



Path Forward

Nearly 45 percent of the Department's Recovery Act funding has yet to be spent. Accordingly,

we have ongoing and planned reviews of Recovery Act funds in a number of high-risk areas such

as Advanced Research Projects Agency-Energy, Electricity Delivery and Energy Reliability, and

Renewable Energy programs. Additionally, our investigative efforts continue.




                                                  6
We are also in the process of evaluating contingency plans to address problems with

transitioning to a post-Recovery Act funding posture. Of the most immediate concern is how the

Department plans to deal with a significant downsizing of the contractor workforce. For

example, Recovery Act funding for environmental clean-up activities are nearly exhausted and

the Department now confronts the unpleasant task of laying off significant numbers of contractor

workforce, many of whom had just recently been hired. The Department estimates that with the

end of the Recovery Act funding, over 4,000 workers at Environmental Management sites

throughout the complex will be displaced by the end of 2011. As part of its plan to transition

contract employees, the Department is offering a series of benefits including re-training,

severance and other paid benefits. We are currently reviewing the Department's workforce

transition plans at two of these sites: the Savannah River Site in Aiken, South Carolina, and the

Hanford Site in Richland, Washington.



As our work progresses, we are further refining our observations on the Department's

implementation of the Recovery Act and are drafting a report to highlight other lessons learned

in the areas of risk management practices; financial management, accounting and reporting;

human capital management; regulatory compliance; and delivery of public services. We are

hopeful that the Department's decision makers and others with an interest in these matters will

consider these lessons learned in the management of future programs and projects.



Mr. Chairman, this concludes my statement and I would be pleased to answer any questions that

the Subcommittee may have.




                                                 7
                                                                              Attachment
                   Department of Energy Office of Inspector General
                                Recovery Act Reports

    Title                                         Report Number       Date Issued
1. Action for a Better Community, Inc. –          OAS-RA-11-21        2011-09-30
    Weatherization Assistance Program Funds
    Provided by the American Recovery and
    Reinvestment Act of 2009
2. People’s Equal Action and Community            OAS-RA-11-20        2011-09-30
    Effort, Inc. – Weatherization Assistance
    Program Funds Provided by the American
    Recovery and Reinvestment Act of 2009
3. The 12 GeV CEBAF Upgrade Project at            OAS-RA-L-11-13      2011-09-30
    Thomas Jefferson National Accelerator
    Facility
4. Cuyahoga County of Ohio Department of          OAS-RA-11-19        2011-09-29
    Development – Weatherization Assistance
    Program Funds Provided by the American
    Recovery and Reinvestment Act of 2009
5. Community Action Partnership of the Greater    OAS-RA-11-18        2011-09-29
    Dayton Area – Weatherization Assistance
    Program Funds Provided by the American
    Recovery and Reinvestment Act of 2009
6. Implementation of the Recovery Act at the      OAS-RA-L-11-12      2011-09-29
    Savannah River Site
7. The Department of Energy’s Energy              OAS-RA-L-11-11      2011-09-23
    Efficiency and Conservation Block Grant
    Program Funded under the American
    Recovery and Reinvestment Act for the State
    of Pennsylvania
8. The Department of Energy’s Weatherization      OAS-RA-11-17        2011-09-19
    Assistance Program under the American
    Recovery and Reinvestment Act in the State
    of Tennessee
9. Management Alert on The Status of Energy       OAS-RA-11-16        2011-09-01
    Efficiency and Conservation Block Grant
    Recipients’ Obligations
10. The Department of Energy’s Weatherization     OAS-RA-11-14        2011-08-25
    Assistance Program Funded under the
    American Recovery and Reinvestment Act
    for the Commonwealth of Virginia
11. Los Alamos National Laboratory                OAS-RA-11-15        2011-08-25
    Environmental Management Activities
    Funded by the Recovery Act
12. The Department of Energy’s Weatherization     OAS-RA-11-13        2011-08-26
    Assistance Program under the American
    Recovery and Reinvestment Act in the State
    of Indiana
                                             8
                                                                              Attachment
                   Department of Energy Office of Inspector General
                                Recovery Act Reports

13. The Advanced Research Projects Agency –       OAS-RA-11-11        2011-08-22
    Energy
14. The Department of Energy’s Weatherization     OAS-RA-11-12        2011-08-22
    Assistance Program under the American
    Recovery and Reinvestment Act in the State
    of Missouri
15. The Department of Energy’s American           OAS-RA-11-10        2011-07-28
    Recovery and Reinvestment Act – California
    State Energy Program
16. Department of Energy’s Controls over          OAS-RA-L-11-10      2011-07-21
    Recovery Act Spending at the Idaho National
    Laboratory
17. Performance of Recovery Act funds at the      OAS-RA-L-11-09      2011-07-07
    Waste Isolation Pilot Plant
18. The Department of Energy’s Weatherization     OAS-RA-11-09        2011-06-13
    Assistance Program under the American
    Recovery and Reinvestment Act in the State
    of West Virginia
19. The Department of Energy’s Weatherization     OAS-RA-11-07        2011-06-06
    Assistance Program Funded under the
    American Recovery and Reinvestment Act
    for the State of Wisconsin
20. Use of American Recovery and Reinvestment     OAS-RA-L-11-08      2011-05-19
    Act of 2009 Funds on Solid Waste Project
    Activities at the Department of Energy’s
    Hanford Site
21. Management Alert on Planned Actions           OAS-RA-11-08        2011-04-22
    Related to the National Energy Technology
    Laboratory’s Simulation-Based Engineering
    User Center
22. The Department of Energy’s American           OAS-RA-L-11-07      2011-04-15
    Recovery and Reinvestment Act – New
    Jersey State Energy Program
23. Department’s Management of Cloud              OAS-RA-L-11-06      2011-04-01
    Computing Services
24. The Department of Energy’s Geothermal         OAS-RA-11-05        2011-03-22
    Technologies Program under the American
    Recovery and Reinvestment Act
25. The Department of Energy’s American           OAS-RA-11-06        2011-03-22
    Recovery and Reinvestment Act –
    Massachusetts State Energy Program
26. Recovery Act Funded Projects at the SLAC      OAS-RA-L-11-05      2011-03-08
    National Accelerator Laboratory


                                           9
                                                                              Attachment
                   Department of Energy Office of Inspector General
                                Recovery Act Reports

27. The Department of Energy's Loan Guarantee    IG-0849              2011-03-03
    Program for Clean Energy Technologies
28. The Department's Infrastructure              OAS-RA-L-11-04       2011-03-02
    Modernization Projects under the American
    Recovery and Reinvestment Act of 2009
29. Management of the Tank Farm Recovery Act     OAS-RA-L-11-03       2011-02-09
    Infrastructure Upgrades Project
30. The Department of Energy's Weatherization    OAS-RA-11-04         2011-02-01
    Assistance Program under the American
    Recovery and Reinvestment Act for the
    Capital Area Community Action Agency –
    Agreed-Upon Procedures
31. Audit of Environmental Cleanup Projects      OAS-RA-L-11-02       2010-12-20
    Funded by the Recovery Act at the Y-12
    National Security Complex
32. Management Alert on the State Energy         INV-RA-11-01         2010-12-03
    Efficient Appliance Rebate Program
33. The Department of Energy's Weatherization    OAS-RA-11-03         2010-11-30
    Assistance Program under the American
    Recovery and Reinvestment Act for the City
    of Phoenix – Agreed-Upon Procedures
34. Management of the Plutonium Finishing        OAS-RA-L-11-01       2010-11-10
    Plant Closure Project
35. Selected Aspects of the Commonwealth of      OAS-RA-11-02         2010-11-02
    Pennsylvania's Efforts to Implement the
    American Recovery and Reinvestment Act
    Weatherization Assistance Program
36. The State of Illinois Weatherization         OAS-RA-11-01         2010-10-14
    Assistance Program
37. Management Controls over the Department of   OAS-RA-10-18         2010-09-29
    Energy's American Recovery and
    Reinvestment Act – Michigan State Energy
    Program
38. Review of Allegations Regarding Hiring and   OAS-SR-10-04         2010-09-22
    Contracting in the Office of Energy
    Efficiency and Renewable Energy
39. Status Report: The Department of Energy's    OAS-RA-10-17         2010-09-21
    State Energy Program Formula Grants
    Awarded under the American Recovery and
    Reinvestment Act
40. The Department of Energy's American          OAS-RA-L-10-06       2010-09-15
    Recovery and Reinvestment Act - Georgia
    State Energy Program


                                          10
                                                                              Attachment
                   Department of Energy Office of Inspector General
                                Recovery Act Reports

41. Office of Science's Energy Frontier Research   OAS-RA-L-10-09     2010-08-27
    Centers
42. Decommissioning and Demolition Activities      OAS-RA-L-10-05     2010-08-12
    at Office of Science Sites
43. The Department of Energy's Implementation      OAS-RA-10-16       2010-08-11
    of the Energy Efficiency and Conservation
    Block Grant Program under the Recovery and
    Reinvestment Act: A Status Report
44. Review of the Department's of Energy's Plan    OAS-RA-10-15       2010-08-04
    for Obligating Remaining Recovery Act
    Contract and Grant Funding
45. Management Controls over the Development       OAS-RA-10-14       2010-07-22
    and Implementation of the Office of Energy
    Efficiency and Renewable Energy's
    Performance and Accountability for Grants in
    Energy System
46. The Department of Energy's Use of the          OAS-RA-10-13       2010-06-11
    Weatherization Assistance Program Formula
    for Allocating Funds Under the American
    Recovery and Reinvestment Act
47. The Department of Energy's American            OAS-RA-10-12       2010-06-07
    Recovery and Reinvestment Act-Florida State
    Energy Program
48. Management Controls over the                   OAS-RA-10-11       2010-05-26
    Commonwealth of Virginia's Efforts to
    Implement the American Recovery and
    Reinvestment Act Weatherization Assistance
    Program
49. Waste Processing and Recovery Act              OAS-RA-10-10       2010-05-25
    Acceleration Efforts for Contact-Handled
    Transuranic Waste at the Hanford Site
50. Management Controls over the Department of     OAS-RA-10-09       2010-05-03
    Energy's American Recovery and
    Reinvestment Act-Louisiana State Energy
    Program
51. Progress in Implementing the Advanced          OAS-RA-L-10-04     2010-04-27
    Batteries and Hybrid Components Program
    under the American Recovery and
    Reinvestment Act
52. The Department of Energy's Program to          OAS-RA-10-08       2010-04-27
    Assist Federal Buyers in the Purchasing of
    Energy Efficient Products
53. Moab Mill Tailings Cleanup Project             OAS-RA-L-10-03     2010-04-23


                                           11
                                                                              Attachment
                   Department of Energy Office of Inspector General
                                Recovery Act Reports

54. Fermi National Accelerator Laboratory's        OAS-RA-L-10-02     2010-04-16
    NOvA Project
55. Management Alert on Environmental              OAS-RA-10-07       2010-04-09
    Management's Select Strategy for Disposition
    of Savannah River Site Depleted Uranium
    Oxides
56. The Department of Energy's Management of       OAS-RA-L-10-01     2010-04-06
    the NSLS-II Project
57. Accounting and Reporting for the American      OAS-RA-10-06       2010-04-01
    Recovery and Reinvestment Act by the
    Department of Energy's Funding Recipients
58. Management Controls over the Department's      OAS-RA-10-05       2010-03-25
    WinSAGA System for Energy Grants
    Management Under the Recovery Act
59. Progress in Implementing the Department of     OAS-RA-10-04       2010-02-19
    Energy's Weatherization Assistance Program
    Under the American Recovery and
    Reinvestment Act
60. Review of Allegations Involving Potential      S09IS024           2009-12-29
    Misconduct by a Senior Office of
    Environmental Management Official
61. Management Challenges at the Department of     IG-0832            2009-12-11
    Energy
62. Selected Department of Energy Program          OAS-RA-10-03       2009-12-07
    Efforts to Implement the American Recovery
    and Reinvestment Act
63. Management Alert on the Department's           OAS-RA-10-02       2009-12-03
    Monitoring of the Weatherization Assistance
    Program in the State of Illinois
64. The Department of Energy's Quality             OAS-RA-10-01       2009-10-21
    Assurance Process for Prime Recipients'
    Reporting for the American Recovery and
    Reinvestment Act of 2009
65. Department of Energy's Efforts to Meet         OAS-RA-09-04       2009-09-04
    Accountability and Performance Reporting
    Objectives of the American Recovery and
    Reinvestment Act
66. Department of Energy Efforts to Manage         OAS-RA-09-03       2009-05-27
    Information Technology Resources in an
    Energy-Efficient and Environmentally
    Responsible Manner




                                           12
                                                                              Attachment
                   Department of Energy Office of Inspector General
                                Recovery Act Reports

67. The Department of Energy's Acquisition       IG-RA-09-02          2009-03-30
    Workforce and its Impact on Implementation
    of the American Recovery and Reinvestment
    Act of 2009
68. The American Recovery and Reinvestment       OAS-RA-09-01         2009-03-20
    Act at the Department of Energy




                                          13
